!;

n L" pi !i

^Weruj Court, U.S.
FIL'D

I rau^
IN THE
SUPREME COURT OF THE UNITED STATES

WARREN TARVER
Petitioner
VS.
STATE OF FLORIDA
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

WARREN TARVER #L13572
SOUTH BAY CORRECTIONAL AND
REHABILITATION FACILITY
P.O. BOX 7171
SOUTH BAY, FLORIDA 33493
Pro Se
ASHLEY MOODY
ATTORNEY GENERAL
THE CAPITOL PL-01
TALLAHASSEE, FLORIDA 32399-1050

i

clerk

L5L„
|

L

QUESTIONS PRESENTED FOR REVIEW
WHETHER IT IS A VIOLATION OF DUE PROCESS OF LAW TO DETAIN A PERSON
UNDER THE AUTHORITY OF A STATUTE THAT CLASSIFIES THE OFFENSE A
CAPITAL FELONY WHERE THE DEATH PENALTY HAS BEEN FOUND BY THE
UNITED STATES SUPREME COURT TO BE UNCONSTITUTIONAL AS PUNISHMENT
FOR THE OFFENSE?
WHETHER THE FLORIDA LEGISLATURE HAS THE POWER TO STATUTORILY
CLASSIFY A CRIMINAL OFFENSE AS A CAPITAL FELONY WHERE DOING SO
CONFLICTS WITH THE CONSTITUTIONAL STANDARDS SET BY THE UNITED
STATES SUPREME COURT?
WHETHER THE UNITED STATES SUPREME COURT MAY REQUIRE STATE COURTS
TO FOLLOW STATE LAWS UNDER FEDERALISM AS A MATTER OF DUE PROCESS?

Page 2 of 13

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.
TABLE OF CONTENTS
Pages(s)
OPINIONS BELOW.

5

STATEMENT OF BASIS FOR JURISDICTION..................................

5

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

7

STATEMENT OF THE CASE

9

t'

REASONS FOR GRANTING THE WRIT

11

CONCLUSION.

13
INDEX TO APPENDICES

Appendix A — Decision of State Court of Appeal and Order on Rehearing
Appendix B — Decision of State Circuit Court
Appendix C — Order of State Circuit Court on Rehearing
Appendix D — Petition for Writ of Habeas Corpus in Circuit Court
Appendix E — Motion for Rehearing in State Circuit Court
Appendix F -- Brief filed in State Court of Appeal
Appendix G — Motion for Rehearing in State Court of Appeal
Appendix H — Habeas Corpus filed in Florida Supreme Court
Appendix I — Order Denying Habeas Corpus

Page 3 of13

TABLE OF AUTHORITIES CITED
Page(s)

Cases
COKER v GEORGIA, 433 U.S. 584, 97 S.Ct. 2861, 53 L.Ed.2d 982(1977)

11

FITZPATRICK v UNITED STATES, 178 U.S. 304,44 L.Ed. 1078(1900)

11

RAKES v UNITED STATES, 212 U.S. 55, 53 LJEd. 401(1909)

11

BAKER v STATE, 878 So.2d 1236, 1246(Fla. 2004)

6, 10

BUFORD v STATE, 403 So.2d 943(Fla. 1981)

6, 11

JENKINS v WAINWRIGHT, 322 So.2d 477(Fla. 1975)

6, 10

STATE v MCBRIDE, 848 So.2d 287(Fla. 2003)

6, 10

MILLS v MOORE, 786 So.2d 532(Fla. 2001)

11

Statutes and Rules
28 U.S.C. §1251(b)(2)

,6,7

28 U.S.C. § 1257(a)

6,7

§79.01, Florida Statutes

8,9

§79.09, Florida Statutes

8,9

§775.082(1) Florida Statutes

8

§794.01 l(2)(a), Florida Statutes

8, 9,11

Page 4 of 13

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner, Warren Tarver, respectfully prays that a writ of certiorari issue to review the
judgment below.

OPINIONS BELOW

The opinion of the highest state court to review the merits of this case is unpublished
but may be viewed in the Appendix at Appendix A (PCA decision affirming order contained
in Appendix B).

STATEMENT OF THE BASIS FOR JURISDICTION
The case now before this Court is concerning the question of whether it is a violation
of due process of law for a legislature to classify a criminal offense a capital felony,
prescribe capital punishment for the offense and detain a person under this authority where
the United States Supreme Court has previously found that a capital offense is one that is
punishable by death and where it subsequently found that it is unconstitutional to punish the
offense in question by death. This claim was first decided in the Fifteenth Judicial Circuit
Court, Palm Beach County, Florida on November 25, 2019. A timely motion for rehearing
was submitted on December 5, 2019, and was denied on December 9, 2019.
The court of last resort in the state of Florida is the Florida Supreme Court. Petitioner
presented the instant claim in the Florida Supreme Court on September 8, 2020, in a petition
Page 5 of 13

for writ of habeas corpus. However, on October 28, 2020, the court denied the petition as
successive pursuant to Jenkins v Wainwright, 322 So.2d 477,478(Fla. 1975) (declaring that
once a petitioner seeks relief in a particular court by means of a petition for extraordinary
writ, he has picked his forum and is not entitled to a second or third opportunity for the same
relief by the same writ in a different court), also stipulating that no motion for rehearing
would be entertained by the court, notwithstanding the most current findings held in State v
McBride, 848 So.2d 287,291 (Fla. 2003), which found that to prevent a manifest injustice and
a denial of due process, relief may be afforded even to a litigant raising a successive claim,
and also Baker v State, 878 So.2d 1236,1246(Fla. 2004) ([t]his Court will, of course, remain
alert to claims of manifest injustice).
Wherefore, pursuant to 28 U.S.C. §1251(b)(2), § 1257(a), ORDER: SUPREME
COURT OF THE UNITED STATES, 2020 U.S. LEXIS 1643, and Supreme Court Rule
13.3, this Court has jurisdiction to review this pleading.

Page 6 of 13

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

UNITED STATES CONSTITUTION
AMENDMENT V
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land or naval
forces, or in the Militia, when in actual service in time of War or public danger nor shall any
person be subject for the same offense to be twice put in jeopardy of life or limb nor shall be
compelled in any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law nor shall private property be taken for public
use, without just compensation.
AMENDMENT XIV, Section 1
All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States nor shall any State deprive any person of life, liberty or property, without due
process of law nor deny any person within its jurisdiction the equal protection of the laws.
FEDERAL STATUTES
28 U.S.C. §1251
(b) The Supreme Court shall have original but not exclusive jurisdiction of:
(2) All controversies between the United States and a State.
28 U.S.C. §1257
(a) Final judgments or decrees rendered by the highest court of a State in which a
decision could be had, may be reviewed by the Supreme Court by writ of certiorari
where the validity of a treaty or statute of the United States is drawn in question or
where the validity of a statute of any State is drawn in question on the ground of its
being repugnant to the Constitution, treaties, or laws of the United States, or where
any title, right, privilege, or immunity is specially set up or claimed under the
Constitution or the treaties or statutes of, or any commission held or authority
exercised under, the United States.

Page 7 of 13

STATE STATUTES
§79.01 Application and writ. - When any person detained in custody, whether charged with
a criminal offense or not, applies to the Supreme Court or any justice thereof, or to any
circuit judge for a writ of habeas corpus and shows by affidavit or evidence probable cause to
believe that he or she is detained without lawful authority, the court, justice, or judge to
whom such application is made shall grant the writ forthwith, against the person in whose
custody the applicant is detained and returnable immediately before any of the courts,
justices, or judges as the writ directs.
§79.09 Filing of papers. - Before a circuit judge, the petition and the papers shall be filed
with the clerk of the circuit court of the county in which the prisoner is detained. Before the
other courts, justices or judges, the papers shall be filed with the clerk of the court on which
the justice or judge sits.
§775.082 (1), Florida Statutes (1993):
A person who has been convicted of a capital felony shall be punished by death if the
proceeding held to determine sentence according to the procedure set forth in s. 921.141
results in findings by the court that such person shall be punished by death, otherwise such
person shall be punished by life imprisonment and:
(a) If convicted of murder in the first degree or of a capital felony under s. 790.161, shall
be ineligible for parole, or
(b) If convicted of any other capital felony, shall be required to serve no less than 25
years before becoming eligible for parole.
§794.011(2) (a), Florida Statutes (1993):
A person 18 years of age or older who commits sexual battery upon, or in an attempt
to commit sexual battery injures the sexual organs of, a person less than 12 years of age
commits a capital felony, punishable as provided in ss. 775.082 and 921.141.

Page 8 of13

STATEMENT OF THE CASE
On August 8, 1995, Petitioner, Warren Tarver was charged by information in the
Seventeenth Judicial Circuit Court, Broward County, Florida, with five counts of sexual
battery pursuant to §794.01 l(2)(a), Florida Statutes, which is classified a capital felony
offense. See Appendix D, Ex-II. On December 4, 1997, Tarver was convicted at trial by a six
person jury and thereafter sentenced on January 9, 1998, to life in prison pursuant to
§775.082(1), Florida Statutes, which is the capital felony sentencing statute in Florida. See
Appendix D, Ex-III.
On November 14, 2019, Tarver submitted a petition for writ of habeas corpus,
pursuant to §79.01 and §79.09, Florida Statutes, in the Fifteenth Judicial Circuit Court, Palm
Beach County, Florida, claiming that he is being detained under the authority of a
constitutionally defective statute where the classification and prescribed punishment for the
offense is invalid. See Appendix D. On November 25, 2019, the court denied the petition
finding the felony classification of the offense to be valid. See Appendix B, page 2.
On December 5, 2019, Tarver filed a timely motion for rehearing pointing out that the
defining element for classification of the offense is nonexistent and that, as a result, the
statute may not serve as a basis for administering the prescribed punishment. See Appendix
E. On December 13, 2019, the court denied the motion for rehearing finding that "the
constitutional availability of the death penalty does not determine whether or not a crime is
classified as a capital felony" and thereby justifies the classification of the offense. See
Appendix C, page 2.

Page 9 of 13

After filing a timely notice of appeal, Tarver submitted his appellate brief in the
Fourth District Court of Appeal, State of Florida, on February 20, 2020. See Appendix F. On
June 25, 2020, a PCA decision was rendered by the court. See Appendix A.
On July 6, 2020, Tarver submitted a timely motion for rehearing seeking clarification
where it appeared that the court may have overlooked a point of law relevant to the gist of
the claim where a PCA decision did not address this point of law affirmatively. See
Appendix G. On August 4, 2020, the Fourth District Court of Appeal denied the motion for
rehearing without comment or expressed reasoning for the issuance of its PCA decision. See
Appendix A.
Because PCA decisions may not be brought before the Florida Supreme Court for
review, on September 8, 2020, Petitioner presented the claim before the Florida Supreme
Court (the court of last resort in Florida) in a successive petition for writ of habeas corpus to
be reviewed. This filing was predicted upon the findings held in Baker v State, 878 So.2d
1236, 1246(Fla. 2004) ([tjhis Court will, of course, remain alert to claims of manifest
injustice) and State v McBride, 848 So.2d 287,291 (Fla. 20003) (to prevent a manifest
injustice and a denial of due process, relief may be afforded even to a litigant raising a
successive claim). However, on October 28, 2020, the petition was denied based on a finding
previously held in Jenkins v. Wainwright, 322 So.2d 477,478(Fla. 1975), "declaring that
once a petitioner seeks relief in a particular court by means of a petition for extraordinary
writ, he has picked his forum and is not entitled to a second or third opportunity for the same
relief by the same writ in a different court."
Now, Tarver respectfully presents the matter before this Court for review.

Page 10 of 13

REASONS FOR GRANTING THE PETITION
This pro se issue, which Tarver respectfully brings before this Honorable Court, is
predicated upon a finding held by this Court in Coker v Georgia, 433 U.S. 584,(1977), cited
in Buford v State, 403 So.2d 943,950-951 (Fla. 1981). In Coker, as cited in Buford, it was
found that it is unconstitutional to impose the penalty of death upon a person convicted of
sexual battery. However, it was not definitively found in Coker whether sexual battery may
retain the pre- existing capital felony classification of the offense. As a result, the Florida
Legislature did not amend the pre-existing "capital felony" classification of §794.01 l(2)(a) in
lieu of the court's finding held in Buford.
Here, Tarver submits that he should be granted relief because the offense does not
meet the necessary requirement to be classified a capital felony and therefore may not serve
as a basis for charging, trying, or imposing sentence upon the offense, which is a violation of
his right to due process of law. In Fitzpatrick v United States, 178 U.S. 304,307, 44 L.Ed.
1078, 1080(1900), and Rakes v United States, 212 U.S. 55, 57, 53 L.Ed. 401,402(1909), this
Court found that the possibility of punishment by death is the defining element which
classifies a criminal offense as a capital crime. "The test is not the punishment which is
imposed, but that which may be imposed under the statute." Since this Court and the Florida
Supreme Court has found that sexual battery (§794.01 l(2)(a)) is not punishable by death, it
stands to reason that the offense cannot be classified as a capital felony. See also Mills v
Moore, 786 So.2d 532,538(Fla.2001). "Therefore, a 'capital felony' is by definition a felony
that may be punished by death."

Page 11 of 13

In addition, there are prejudicial factors that also exist as reasons for granting relief.
For one, though the offense is classified a capital felony, the courts in Florida will not charge
§794.01 l(2)(a) by indictment before a Grand Jury and will not tiy the offense by a twelve
person jury, which is the required procedure in Florida for "capital" cases. Notwithstanding
this practice, sentencing for 794.01 l(2)(a) is imposed under the authority of Florida's
"capital" felony sentencing scheme, which prescribes life in prison as an alternative to the
prescribed punishment of death and leaves no discretion with the trial court on how it may
impose sentence. If the offense was properly classified, the trial court would be empowered
to consider mitigating factors during sentencing and impose a sentence which range from a
term of years not to exceed 40 years in prison or impose the maximum penalty of life in
prison.
Finally, this issue should have been viewed by the Florida Supreme Court, which
ultimately denied the claim citing Jenkins v Wainwright, 332 So.2d 477(Fla. 1975), finding
that the relief in a particular court by means of a petition for extraordinary writ is not entitled
to the same relief by the same writ in a different court. Based upon the more current findings
held in State v McBride, 884 So.2d 287,291 (Fla. 2003) and Baker v State, 878 So.2d
1236,1246(Fla. 2004), such a filing could be reviewed by the Florida Supreme Court as the
court of last resort to prevent a manifest injustice. As such, Petitioner questions whether this
Court may require the Florida Supreme Court two comply with the findings held in Baker
and McBride.

Page 12 of 13

CONCLUSION

Wherefore, Tarver respectfully prays that his petition will reach review by a panel of
this Court for adequate resolution.

Respectfully Submitted,
Warren Tarver - #L13572
Pro Se
February f O , 2021

Page 13 of 13

